<html>
<title> - PROMPT GLOBAL STRIKE: AMERICAN AND FOREIGN DEVELOPMENTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                        [H.A.S.C. No. 114-73]

        PROMPT GLOBAL STRIKE: AMERICAN AND FOREIGN DEVELOPMENTS

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            DECEMBER 8, 2015


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               ___________
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
98-278                      WASHINGTON : 2016                       

                                     
 _______________________________________________________________________________________ 
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
 E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6700170827041214130f020b174904080a49">[email&#160;protected]</a>  
 


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Acton, James, Senior Associate, Carnegie Endowment...............     6
Kehler, Gen C. Robert, USAF (Ret.), Former Commander, U.S. 
  Strategic Command..............................................     2
Scheber, Thomas, Independent Consultant..........................     5

                                APPENDIX

Prepared Statements:

    Acton, James.................................................    52
    Kehler, Gen C. Robert........................................    25
    Rogers, Hon. Mike............................................    23
    Scheber, Thomas..............................................    38

Documents Submitted for the Record:

    Slides displayed by Mr. Rogers...............................    69

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................    78
    Mr. Rogers...................................................    73
        

 
          PROMPT GLOBAL STRIKE: AMERICAN AND FOREIGN DEVELOPMENTS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                         Washington, DC, Tuesday, December 8, 2015.
    The subcommittee met, pursuant to call, at 2:18 p.m., in 
room 2212, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.
    Mr. Rogers. I want to call this hearing of the Armed 
Services Subcommittee on Strategic Forces to order. We are 
going to have our hearing today on ``Prompt Global Strike: 
American and Foreign Developments.''
    I want to welcome our panelists and guests with us today.
    And is Ms. Cooper here? Martha is here. I want to welcome 
the ranking member's wife, Martha Cooper, for being with us 
today. I had a chance to travel with her recently. She is 
wonderful. I don't know how she puts up with Jim, but she is 
wonderful.
    But we are happy to have our witnesses with us today. We 
have got a fine bunch. And I am happy to dispense with my 
opening statement.
    If Jim wants to do the same, so we--unless you just feel 
compelled or something.
    Mr. Cooper. You didn't even say ``Roll Tide'' or anything.
    Mr. Rogers. Don't stir me up.
    Because of the vote series, what is happening is there is a 
series of procedural votes that have been happening, will be 
happening all day, so we will probably be interrupted. So to 
ensure that we can get to the witnesses for their statements 
and questions, we will just dispense with the reading of our 
opening statements and submit them for the record.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 23.]
    Mr. Rogers. With that, we have testifying before us today 
General C. Robert Kehler, retired former commander of Strategic 
Command, U.S. Strategic Command; Mr. Tom Scheber, independent 
consultant; and Dr. James Acton, senior associate, Carnegie 
Endowment.
    I want to thank you for your time and energy that you put 
in to preparing for these hearings and for traveling up here on 
your own dime. I appreciate that.
    And, General Kehler, if I bet you money 2 years ago that we 
would be able to get you to sit in this chair again, what would 
the odds have been? Not good?
    General Kehler. Very high.
    Mr. Rogers. Oh, really? Well, good.
    General Kehler. Of course, of course.
    Mr. Rogers. We appreciate you being here.
    So, with that, I will recognize General Kehler for his 
opening statement.

    STATEMENT OF GEN C. ROBERT KEHLER, USAF (RET.), FORMER 
               COMMANDER, U.S. STRATEGIC COMMAND

    General Kehler. Thank you, Mr. Chairman, Ranking Member 
Cooper, distinguished members of the subcommittee. I am honored 
to join you today.
    With your permission, Mr. Chairman, what I would like to do 
is submit my full statement for the record and then provide a 
brief summary now.
    Mr. Rogers. Without objection, so ordered.
    General Kehler. This is the first time I have appeared 
before a congressional committee since retiring from active 
service in December of 2013, and I am pleased to be here to 
offer my personal perspective today on the topic of 
conventional prompt global strike [CPGS].
    We live in challenging times, and I continue to believe 
that a strong strategic deterrent composed of effective 
defenses, modern conventional and non-kinetic capabilities, an 
updated nuclear triad, and highly trained and well-led people 
will be needed to underwrite our national security and assure 
the security of our allies and partners well into the future. 
The potential threats to our security and the security of our 
allies are diverse, can arrive at our doorsteps rapidly, and 
can range from small arms in the hands of terrorists to nuclear 
weapons in the hands of hostile state leaders. The possible 
intersection of violent extremism and weapons of mass 
destruction remains a significant concern that requires 
constant vigilance. State and non-state actors alike can stress 
our intelligence capabilities and contingency plans by 
employing highly adaptive hybrid combinations of strategies, 
tactics, and capabilities, and by using the speed of 
information to mask their activities behind a veil of deception 
and ambiguity. New capabilities, like cyber weapons and 
unmanned vehicles, are emerging, and familiar weapons, like 
ballistic missiles and advanced conventional capabilities, are 
more available, affordable, and lethal.
    I can't recall a time during my professional career when 
potential threats to our homeland were more varied or 
pronounced than they are today. The tragic events in New York 
on 9/11 and more recently in Paris, San Bernardino, and 
elsewhere remind us that we must continue to pursue and destroy 
violent extremists and their networks while remaining 
constantly on guard to prevent and respond to attacks from 
them.
    Beyond violent extremists, state adversaries are seeking to 
change the strategic situation in their favor by improving 
their ability to threaten the U.S. and allied homelands with 
attack by long-range conventional, cyber, and, in some cases, 
nuclear weapons. When used in concert with capabilities 
designed to degrade our key operational advantages--things like 
space-based ISR [intelligence, surveillance, and 
reconnaissance] and communications--and negate our conventional 
superiority, they believe a credible threat to escalate a 
conflict of a strategic level against our homeland will raise 
the risks and costs of our intervention and to do so to 
unacceptable levels, thereby enabling more assertive foreign 
policies and aggressive actions.
    In my view, dealing with today's varied threats from actors 
with widely different capabilities and motivations requires the 
flexible application of a range of capabilities within 
strategies and plans that are tailored to specific adversaries 
and scenarios. Violent extremists and nation-states are not the 
same, and we cannot deal with any of them in a one-size-fits-
all manner.
    Deterrence strategies that are the preferred approaches to 
counter nation-states will likely not be effective against 
violent extremists, where direct action is often the only 
recourse. Nuclear weapons may not be the most credible 
deterrence tool against some targets and in some scenarios 
where they were once the preferred option. Therefore, it is 
increasingly clear to me that we must carefully match our 
strategies and plans to individual actors and deploy a range of 
conventional and nuclear capabilities that can either deter, if 
possible, or defeat them in multiple scenarios.
    The capability to hold at risk and promptly attack a subset 
of high-value targets with a long-range conventional weapon is 
one such capability. What I said when I advocated for this 
capability while still on Active Duty in 2013 remains true now. 
Today, the only prompt global strike [PGS] capability to engage 
potentially time-sensitive, fleeting targets continues to be a 
ballistic missile system armed with nuclear weapons.
    We continue to require a deployed conventional prompt 
strike capability to provide the President a range of flexible 
military options to address a small number of highest value 
targets, including in an anti-access and area-denial 
environment. In my view, such a capability would both enhance 
strategic deterrence and improve our ability to react quickly 
in a time-critical scenario by providing the President with an 
option to promptly deliver a nonnuclear weapon against a 
limited but vitally important target or subset of highest value 
targets at long ranges. Such targets might be presented either 
by violent extremists, rogue or other nation-states; could 
emerge in a day-to-day or conflict scenario; and would most 
likely be highly defended, be found in the most challenging 
geographic locations, or be mobile--perhaps all three.
    While it is impossible to predict with 100 percent 
certainty what these targets might be, it is likely that they 
would fall into several general categories: Those that pose an 
immediate threat to the U.S. or allied homelands; those that 
involve the imminent use or movement of weapons of mass 
destruction; those associated with key extremist leaders; or 
those that represent a critical node in an important system 
that must be eliminated early in a campaign. Such a 
conventional prompt global strike system would complement, not 
replace, other strike capabilities by filling a gap in the 
capabilities of both existing and planned systems.
    The analysis is simple. Traditional systems are 
insufficient if they cannot deliver weapons in an operationally 
relevant timeframe. And in many plausible scenarios, 
traditional conventional forces may not be close enough or in a 
position to do just that. While 1 hour and global range do not 
have to be absolute criteria for CPGS, the need remains to 
provide the President with the means to strike certain targets 
quickly with a conventional weapon and in the face of the most 
challenging time and distance circumstances.
    Conventional prompt global strike is intended to prevent an 
adversary from using time and distance as a sanctuary. Over the 
last several years, research and development efforts on CPGS 
have highlighted both the promise and challenges of fielding 
such a capability. As many have pointed out, beyond the 
technical challenges, CPGS systems also raise policy, doctrine, 
and operational concerns that would have to be resolved prior 
to deployment. Additionally, important enabling capabilities, 
such as ISR and battle management and command and control, must 
also be addressed in order to field a viable operational 
system.
    The U.S. would also need to carefully assess the role of 
CPGS in strategic deterrence. While it is U.S. policy to reduce 
our reliance on nuclear weapons, I do not believe conventional 
weapons generally and CPGS specifically can serve as a large-
scale replacement for nuclear weapons.
    Finally, I remain concerned, Mr. Chairman, about investment 
priorities. I am mindful of the difficult budget environment 
you are facing and worry that a robust CPGS effort could delay 
or eliminate other necessary modernization efforts. In my view, 
CPGS cannot and should not take the place of the vitally 
important nuclear or other strategic modernization efforts this 
subcommittee has worked hard to help craft and support. While I 
believe there is a real gap in our ability to strike promptly 
at long range with conventional weapons and that CPGS could 
definitely help close that gap, I would recommend caution as 
you consider elevating this need against others.
    Sir, I remain an advocate for CPGS as a complementary 
capability to enhance both deterrence and contingency response 
in the 21st century, but in this budget environment, I 
personally do so with a caveat. There are many important 
investment priorities that contribute to sustaining and 
enhancing our deterrence posture and ensuring our military 
people and civilian partners remain the envy of the world. A 
prudent CPGS investment profile seems to me to be a sensible 
way to preserve future decision space while respecting budget 
realities.
    Thank you again for inviting me to appear, and I look 
forward to your questions.
    [The prepared statement of General Kehler can be found in 
the Appendix on page 25.]
    Mr. Rogers. I thank you, General. I think that is a 
reasonable and prudent caveat, by the way.
    You are having microphone problems. I am having microphone 
problems. We have got somebody working on that. I just wanted 
the people to realize that we are trying to get it fixed.
    So, with that, Mr. Scheber, we recognize you for a summary 
of your opening statement. And we hope your microphone works.

      STATEMENT OF THOMAS SCHEBER, INDEPENDENT CONSULTANT

    Mr. Scheber. Chairman Rogers, Ranking Member Cooper, and 
distinguished members of the House Subcommittee on Strategic 
Forces, thank you for the opportunity to appear here today.
    As many of the committee members are aware, over the past 
15 years, the thinking about the roles served by strategic 
weapons and the collection of capabilities needed has undergone 
a significant transformation. This transformation in 
conceptualizing strategic force needs--plus newly available 
technology--has provided the catalyst for prompt global strike.
    Strategic capabilities are more than destroying the 
adversary forces; they are, in general, capabilities that can 
affect the decision calculus of leaders of other countries in 
peacetime and can become game changers if used in wartime.
    General Kehler has certainly outlined the complex security 
environment we face and for which CPGS would be, in many cases, 
an important contribution.
    Longstanding national security goals remain important, and 
these goals include four, which I will address very briefly: 
One, deterring adversaries from specific actions; two, assuring 
U.S. allies and friends; three, discouraging further military 
competition; and four, should deterrence fail, limiting damage 
and defeating an adversary. PGS can provide unique benefits in 
each of these four policy goals.
    Of specific interest to this hearing today is a proposal to 
develop long-range nonnuclear strike capabilities as a 
supplement to--not a replacement for--nuclear strike. The 
potential scenarios requiring use of such a weapon are often 
the primary focus of inquiries such as the discussion we will 
have today. However, if the late James Schlesinger were among 
us today and on the panel, he would insist on commenting that 
PGS would be used every day during peacetime and then only if 
needed in wartime. Let me explain briefly.
    Of the four policy goals, PGS could be helpful in deterring 
adversaries. In some situations, advanced conventional strike, 
such as PGS, could pose a more credible offensive threat to 
adversaries than a nuclear threat. Uncertainty over just how 
the United States might respond to an immediate provocation 
without resorting to nuclear weapons would enhance overall U.S. 
capabilities for deterrence. PGS would also help assure allies. 
Allies in high-threat regions have expressed concerns about 
U.S. nuclear reductions and other military cutbacks, while at 
the same time they see their adversaries modernizing or 
developing nuclear and other WMD [weapon of mass destruction] 
capabilities. From the perspective of allies, threats to them 
are increasing, and allies want to know how the United States 
will carry out its extended deterrence commitments to them, to 
deter and defeat adversaries while limiting damage. Some allies 
may be reassured by the knowledge that the United States has a 
prompt nonnuclear strike capability should the need arise.
    And, third, PGS can help discourage strategic force 
competition. Developing and deploying a global or near global 
precision strike capability would demonstrate to potential 
adversaries the technical prowess and resolve of the United 
States. Some potential adversaries could be dissuaded from 
competing militarily because of the tangible display of U.S. 
technical superiority as well as the cost and challenge of 
military competition.
    And, finally, should deterrence fail, to help and defend 
the United States and its allies, PGS can play a useful role. A 
PGS capability would provide one additional option for the 
President's consideration, a unique strategic capability that 
we do not have today. One or more PGS weapons could be employed 
promptly to degrade, disrupt, or destroy adversaries' 
capabilities, which need to be neutralized promptly and for 
which other options would not be timely and effective. Those 
who argue against developing prompt global strike would 
foreclose such an option from those available to a future 
President.
    In my written statement, I have addressed these issues in 
greater detail. With your permission, I ask that it be made 
part of the record, and hope that this material is of use to 
the subcommittee as it considers the need for prompt global 
strike. Thank you, sir.
    [The prepared statement of Mr. Scheber can be found in the 
Appendix on page 38.]
    Mr. Rogers. Without objection, that full statement will be 
submitted for the record.
    Dr. Acton, you are recognized for 5 minutes to summarize 
your statement.

 STATEMENT OF JAMES ACTON, SENIOR ASSOCIATE, CARNEGIE ENDOWMENT

    Dr. Acton. Mr. Chairman, Ranking Member Cooper, members of 
the committee, it is a genuine honor to testify before you 
today, and thank you for the opportunity. I hope I can be of 
help to the committee both today on this issue and in the 
future. With your permission, I would like to submit my full 
statement for the record.
    Mr. Rogers. Without objection, so ordered.
    Dr. Acton. While I will focus my testimony on the U.S. 
conventional prompt global strike program, I would be very 
pleased to answer questions about both Russian and particularly 
Chinese developments in this area too.
    Let me emphasize from the start that I am genuinely 
undecided about whether the United States should acquire CPGS 
weapons. The capability would unquestionably convey potential 
benefits, but it would also carry potential risks. Today, in my 
opinion, the relative magnitudes of those benefits and risks 
are unclear.
    The difficulty of reaching a definitive conclusion about 
whether to acquire CPGS weapons stems in part from 
technological immaturity. The underlying technology is 
extremely challenging, and further research and development, 
including flight testing, is required prior to any procurement 
decision. However, it also stems from what I believe are flaws 
in the Department of Defense's approach to CPGS development. 
Most importantly, the Pentagon has no official policy that sets 
out the specific military missions for which CPGS weapons might 
be acquired.
    The frequently repeated statement that the program's 
purpose is to develop high-precision conventional weapons, 
capable of reaching targets anywhere on Earth within an hour, 
is not only an increasingly inaccurate description of the 
technology that is actually being developed, but it does not 
speak to the specific military missions for which CPGS weapons 
might be acquired. Until the Department of Defense specifies 
these missions, there can be no yardstick against which to 
judge the likely effectiveness of different potential CPGS 
technologies. The tradeoffs associated with acquiring other 
weapons for the same purposes also cannot be properly assessed.
    To compound the problem, I believe there is evidence that 
the Department of Defense has failed to properly consider the 
enabling capabilities, such as intelligence, surveillance, 
reconnaissance, and battle damage assessment, needed to ensure 
the effectiveness of CPGS weapons as well as the full range of 
escalation risks.
    Not only do these flaws make it impossible at this time to 
reach a conclusion about the ultimate desirability of CPGS 
weapons, but they also create three real risks. They are that 
the United States will develop weapons that, first, are not 
optimized from a military perspective for the missions for 
which they might be employed; second, are not the most cost-
effective way of prosecuting those missions; and, thirdly, 
unnecessarily exacerbate escalation risks with Russia and 
China.
    Fortunately, I believe there is still time for a course 
correction by the Department of Defense, and in my written 
testimony, I suggest how the Department might proceed.
    Thank you for your attention, and I yield the balance of my 
time.
    [The prepared statement of Dr. Acton can be found in the 
Appendix on page 52.]
    Mr. Rogers. I thank all the witnesses for their opening 
statements.
    We have been called for another vote. So, again, it is just 
one procedural vote, so we will recess for about 15 minutes to 
go and cast that vote and come right back. I apologize, but I 
am not running the trains around here.
    With that, we are in recess.
    [Recess.]
    Mr. Rogers. I call this hearing back to order. I don't know 
how this process is going to work as far as votes, but I will 
start the questioning while we wait on Mr. Cooper to get back.
    General Kehler, in your opening statements, you talked 
about, while in the service, that you supported prompt global 
strike, and you offered a caveat. Could you walk us through the 
capability gap that you thought--that you believe exists that 
caused you to have that support?
    General Kehler. Mr. Chairman, one of the things that 
Strategic Command [STRATCOM] was responsible for, of course, 
was for planning for global strike, and so it was our job to 
look at various scenarios and to assess those scenarios for 
targeting and for the kind of capabilities we could match 
against those scenarios and those sorts of targets. The obvious 
ones that STRATCOM has been planning for years and years 
involved nuclear weapons and nuclear deterrence. We were very 
supportive of the notion that we should be looking to employ 
conventional weapons in times and places where we would once 
have used nuclear weapons as much as was feasible. We also 
were--so we picked up a responsibility for conventional global 
strike as well. That also forced us to take a hard look at the 
kinds of issues that the regional combatant commanders have and 
that we had at STRATCOM, the kinds of targets that were defined 
by being time urgent and at such distances that we could not 
quickly get a traditional conventional weapon there. Those 
scenarios are typically as I outlined in my opening comments. 
Those scenarios exist when there is an immediate threat to the 
homeland, for example, or the homeland of our allies, and we 
are talking about WMD, those kinds of things, terrorist-related 
threats that can pop up quickly, be identified and need to be 
addressed. So we had nothing that was nonnuclear in order to go 
after those kinds of targets.
    Once U.S. forces are in place or when U.S. forces are in 
place, this gap doesn't look the same at all. It is when they 
are not in place or when the timing--even with the in-place 
forces, when the timing is such that they just can't get there 
in an operationally necessary or relevant time. Is that 1 hour? 
Is that global distance? I think those are--are good benchmarks 
for the start of this conversation. I don't think they are 
absolutes. So is 2 hours sufficient? I think in some cases it 
is. You know, the shorter, the better, I would say. The best we 
can do, the better the capability.
    So this was a matter of looking at a set of needs that we 
described as niche needs where other forces are not available, 
where the use of a nuclear weapon is inappropriate. And when I 
sat back and looked at what options I would present to the 
President in those kinds of scenarios, I didn't have anything 
in our quiver that we could immediately offer.
    Mr. Rogers. All right. Thank you. When you think about 
that, compare where we are to Russia and China, particularly 
China has tested hypersonic glide vehicles six times already 
this year. And I know in conversation I had earlier with Mr. 
Scheber, he had talked to me about China's more aggressive 
schedule. Do you see them confronting this gap in a more 
aggressive fashion than the United States did? Tell me more 
about it, if you can.
    General Kehler. Sir, I will just offer a quick comment and 
then defer to my colleagues here if that is okay.
    Mr. Rogers. Sure.
    General Kehler. I don't have--since my retirement, I don't 
have in-depth knowledge of what the Chinese and the Russians 
are both doing. I will say this: I do believe that they are 
both interested in pursuing a long-range prompt conventional 
strike means as part of their strategies. It is a strategy, in 
the case of the Chinese, to enhance what we call their anti-
access, area-denial capabilities, their capabilities against 
ships and other conventional platforms where we have an 
advantage.
    I think in both of their cases, it is also a means for them 
to hold targets in our homeland and those of our allies at 
risk, and I think they do that strategically in order to cause 
us to assess the risk of our intervention in a crisis or a 
conflict in a different way. So I know they are pursuing those 
kinds of capabilities. It isn't quite clear to me, and I know 
you are receiving a briefing a little bit later, a classified 
briefing, that will get into that more deeply, but I do believe 
they are both interested in those kinds of capabilities, and I 
think that they are pursuing R&D [research and development] 
efforts to try to bring those capabilities to some level of 
decision point where they can decide on deployment.
    Mr. Rogers. Mr. Scheber, I know you and I talked about this 
a little bit earlier. Do you want to add something to what 
General Kehler just offered?
    Mr. Scheber. Yes. Thank you, Mr. Chairman. Most of--my 
research has been focused on open sources, so it is all 
unclassified research, what is available in the press, what the 
Chinese wish to have revealed to us, and as well as 
unclassified DOD [Department of Defense] reports.
    Regarding China, as General Kehler has outlined, the 
Chinese appear to be developing prompt nuclear and nonnuclear 
strike capabilities that fit with their anti-access and area-
denial strategies out to the second island chain. Just 
specifically regarding conventionally armed ballistic missiles, 
they have over 1,200 short-range missiles that are ballistic, 
the DFs 11 and 15 that are deployed opposite Taiwan; they have 
medium-range missiles, such as the DF-21 family, which includes 
an anti-ship version; they have a DF-16, which can target 
Okinawa, which we have our forces deployed there; and they are 
in the process, at least according to open-source reports, of 
developing a longer range, classified as an intermediate-range 
missile, the DF-26, which Chinese reports refer to as the 
``Guam killer.'' The name is pretty self-explanatory.
    So if we look at what we know of the Chinese strategy to 
dominate the western Pacific and deny the United States access 
to that area, these capabilities look like they are pretty well 
designed to help them with that strategy, and as far as we 
know, at least at the unclassified level, those missiles have 
the capability to be either nuclear or conventionally armed.
    Mr. Rogers. Great. My final question before I turn it over 
to the ranking member is for General Kehler. You and I have 
talked about this before, but I wanted to visit the subject. 
The disarmament advocates believe that we should get rid of one 
leg of the triad. They say we don't need the ICBMs 
[intercontinental ballistic missiles] anymore, so we shouldn't 
pursue the Ground-Based Strategic Deterrent program, or that we 
don't need air-launched cruise missiles, so we shouldn't pursue 
the long-range standoff weapon. In fact, these people say that 
these systems are dangerous and destabilizing.
    What are your thoughts about the suggestions that we hear 
from these advocates?
    General Kehler. Mr. Chairman, I remain a supporter of the 
triad, and I remain a supporter because I think the triad does 
some very important things for us. Number one, it gives to any 
President a range of options. It is very difficult, I think, 
post-Cold War to envision the scenarios we are going to find 
ourselves in, in the future. We typically get that wrong, as a 
matter of fact.
    And so I think that one thing the triad does for us is it 
gives us a range of options to present to any President to deal 
with a crisis or a conflict. The second thing it does is it 
provides insurmountable problems for an adversary, either 
attack problems to try to eliminate our forces or defense 
problems. And it forces them to invest in all kinds of ways 
that, when you start to eliminate legs of the triad, I think 
they don't have to invest any longer. By the way, I think it 
diminishes our deterrent value as well.
    The third thing it does, the triad does, is it provides the 
United States with a hedge--a hedge against technical failure 
or a hedge against geopolitical change. Again, it is an 
uncertain world, and if we had, for example, let's say we 
decided to do away with the ICBM leg of the triad--I am a fan 
of the ballistic missile submarine force. Ballistic missile 
submarine force--and by the way, when New START [Strategic Arms 
Reduction Treaty] is finally brought into full force, most of 
our deployed weapons will be aboard submarines. That works this 
issue about survivability of the land-based ICBM force and 
whether or not we are in a use-or-lose kind of scenario. We 
have taken steps to avoid that.
    But having said that, without the ICBMs, we are one 
potential technical failure, in either a ballistic missile 
system or a warhead, away from having no ballistic missiles. 
And while we would still have nuclear capable aircraft, those 
are not on alert on a day-to-day basis. We would be putting a 
future President in a position of having to make that decision 
as well. I think for hedge purposes, it makes sense to retain 
all three legs.
    Finally, I think it has been cost-effective.
    So, yes, we need to be mindful, I believe, of the concerns 
about stability and ambiguity and those kind of things, but I 
believe that the concerns that have been raised about ICBMs, 
that they are on a hair trigger, that--because of use or lose, 
I believe you have to remember that there is one finger on the 
trigger, and that finger belongs to the President and only the 
President.
    The second thing I think you have to remember is the use-
or-lose issue is not the same issue today as it was during the 
Cold War. There are additional nuclear adversaries beyond--
potential adversaries beyond the Russians. Only the Russians 
can threaten the ICBM force in total. So I think the use-or-
lose problem looks different today, and I think that the world 
situation puts a different light on that as well.
    Finally, the idea about unauthorized or--you know, 
accidental launch, I think for ICBMs there are layers of 
safeguards, and while, yes, it is important for us to continue 
to focus on that and make sure that we constantly get better in 
that regard, I believe that we work that problem pretty well.
    Cruise missiles. You know, cruise missiles have proven 
their value. At least from my perspective and certainly my last 
job's perspective, they prove their value both in deterrence 
value, that you can arm a bomber, whether that bomber is 
penetrating, in the case of LRSB [long-range strike bomber] in 
the future, or whether it is standoff, what you are doing is 
you are increasing the effectiveness of the bomber. And to me, 
there is tremendous value in being able to do that. When you 
look at the land masses that are potentially involved here, 
even a penetrating platform benefits from having a longer range 
missile, that it doesn't have to get close to the target area 
if it doesn't want to, or it can hold multiple targets at risk 
at varying ranges while it is penetrating. I think there is 
tremendous value there for deterrence, and there is no question 
the value--the combat value we have gotten out of using 
hundreds of conventional cruise missiles.
    So I don't understand some of the argument here about why 
we shouldn't go ahead with a replacement for the ALCM [air-
launched cruise missile]. To me, it makes all the sense in the 
world. It makes even more sense if that replacement for ALCM 
eventually becomes dual-capable, and then I think we have done 
exactly what we have done with the air-launch cruise missile. I 
do not believe that we are changing either the stability or the 
ambiguity issues here. These are issues--you know, when we use 
B-52s today--I am taking too much time--but when we use B-52s 
today, we use B-2s today, and we have only ever operationally 
used them, thank heaven, in conventional modes. And we have 
been able to work the ambiguity issue when a cruise missile 
lifts off a surface ship, or when it drops out of a B-52 bomb 
bay, or if it comes out of an SSGN [guided missile submarine], 
no one believes that we have just launched a nuclear weapon.
    Now, we need to be careful with that. I agree that that is 
an issue that we have to be mindful of and continue to work to 
reduce that risk and continue to reduce the risk as much as we 
possibly can, but I do not believe that we are changing the 
game here with LRSO [long-range standoff weapon]. I think what 
we are doing is continuing our--both our deterrence and our 
conventional warfighting capability.
    Mr. Rogers. Great. I thank the gentleman.
    The Chair now recognizes the ranking member for any 
questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    I am most interested in that netherworld between nuclear 
and conventional, and we probably can't call it conventional 
anymore since hypersonic weapons are stretching the limits of 
conventionality, so maybe we should say ``nuclear, 
nonnuclear.''
    I think everyone agrees that due to the speed and precision 
of these conventional warheads, they can have a devastating 
impact on the target. I think we can also all agree that many 
poorer nations are encouraged to turn nuclear because that is a 
more affordable way to get devastating capabilities because 
they have less hope of achieving a hypersonic capability.
    So I was interested in Mr. Acton's book ``Silver Bullet'' 
when he talked about how even our bunker buster bomb, the 
massive ordnance penetrator, can go a certain depth, but these 
things can go probably twice as deep, due to the speed and 
precision. So it seems to me to be an interesting inflection 
point for the world. Several leading nations are pursuing these 
weapons, but we don't know quite how to classify them. And the 
chairman has pointed out that we have been kind of slow 
developing them, given the lead time, and I hope we can get to 
the bottom of that in the Pentagon, but to me, it is a 
fascinating category because they are not nuclear, but yet they 
have super capabilities, and they tempt other nations to do 
some extreme reactions.
    Mr. Acton also noted that Putin comments five times in 
recent years. He seems to pay particular attention to these. 
The potential for these weapons is remarkable. So I am hopeful 
that we can develop the capability and do so in a sensible way 
that does not exacerbate the difficulties in the world that we 
have already.
    I would welcome comments from any of the witnesses on this. 
Am I off base in classifying the weapons these ways, as not 
really conventional but certainly not nuclear?
    Dr. Acton. Thank you, Mr. Cooper.
    And these are certainly weapons that have significantly 
greater potential to destroy certain kinds of targets than 
existing conventional weapons. Unclassified figures put the 
depth that the massive ordnance penetrator can go to at about 
20 meters of reinforced concrete. My calculations suggest that 
hypersonic weapons might be able to go to 40 meters. With 
nuclear weapons, you are talking about weapons that can 
potentially destroy targets hundreds of meters in hard rock. So 
there [is] still, as you absolutely rightly point out, quite a 
big difference there between even these penetrating weapons and 
nuclear weapons.
    I think one of the important questions that this raises, 
and this is a question that is impossible to answer at the 
unclassified level, that is, how many additional targets are 
there that are out of the reach of existing conventional 
weapons but would be in the reach of hypersonic weapons. I just 
don't know the answer to that question, but that is, I think, 
the type of thing that needs to be considered at the classified 
level, and as you say, sir, thinking about how to do this 
sensibly.
    I would just raise a couple of points about some of the 
escalation risks involved with these weapons. So much of the 
debate so far has been swallowed up by the so-called problem of 
warhead ambiguity, which when the administration of President 
George W. Bush had a plan to take nuclear warheads off some 
Trident missiles and replace them with conventional warheads, 
Congress was concerned that an observing state, most likely 
Russia, would see the launch of one of those weapons and 
misinterpret a conventional for a nuclear weapon.
    I think we have placed far too much emphasis on the warhead 
ambiguity problem. There are other escalation risks with 
conventional prompt global strike weapons that I think haven't 
had adequate attention. So to give you one, the Department of 
Defense is interested in these boost-glide weapons precisely 
because they don't fly in ballistic trajectories, and so DOD 
argues that an observing state could tell this was nonnuclear 
because it was in a different trajectory, and I think that is 
exactly right. However, these weapons are also highly 
maneuverable, and if one fires them, say, in the direction of 
Iran, Russia might not know whether that weapon was heading for 
Russia or Iran, or if one fired them at North Korea, then 
Russia or China, for that matter, might not know whether the 
target was Russia or China. This is what is termed destination 
ambiguity.
    So there are real tradeoffs here in terms of risk reduction 
in that technologies that exacerbate one risk can reduce 
another. These escalation risks are risks to be considered. I 
don't necessarily argue that they are by any means the only 
factor that needs to be considered, but from everything I have 
seen, DOD is very largely focused on the warhead ambiguity 
problem and hasn't given adequate attention to those other 
kinds of risks.
    Mr. Cooper. How would you classify a weapon that had in its 
glide phase only 48 percent?
    Dr. Acton. Well----
    Mr. Cooper. That seems to be a pretty arbitrary distinction 
between 50 percent glide phase.
    Dr. Acton. I would make two points there. I mean, the 
distinction comes from arms control definitions where the--if a 
weapon is ballistic over the majority of its trajectory, then 
it is deemed to be a ballistic missile. And that, I think, is 
unquestionably the correct interpretation of the existing arms 
control treaties we have. The extent to which that mitigates 
ambiguity problems, though, I think is more of an open 
question, but what I would say is another issue with DOD's 
argument is that if you are Russia, you would see the launch of 
a boost-glide weapon if you had a satellite in the right place 
looking. You wouldn't, then, see a weapon flying in a 
nonballistic trajectory. What you would actually see is nothing 
at all after the launch because boost-glide weapons fly at too 
low an altitude to be detected by early warning radar.
    So DOD's argument is that Russia could see that the weapon 
was flying in a nonballistic trajectory; whereas, in fact, I 
think Russia would see nothing at all after the launch.
    Mr. Cooper. Thank you, Mr. Chairman.
    In view of the shortness of time, I yield to other members.
    Mr. Lamborn [presiding]. Okay. Thank you. I will ask a 
question or two and then turn it over to my colleague from 
California, depending on when we have to go vote here.
    General Kehler, there is a letter that I saw that one of 
the Senators is circulating urging the administration to stop 
any thought about developing a nuclear-tipped air-launched 
cruise missile. And I know that that is not the subject of our 
conversation here today, but it is related, but I realize it is 
on the other side of the bright line between conventional PGS, 
and this is on the other side. This is nuclear air cruise 
missile. But it is important, because that letter's 
circulating, and yet when I see what the President certified 
when he addressed the Senate on the New START treaty back in 
the year 2011, among other things, he certified under point 3 
that he intended to modernize or replace the triad of strategic 
nuclear delivery systems, which is a heavy bomber, an ICBM, et 
cetera, et cetera, add an air-launched cruise missile. So the 
President in the past is on record saying that a nuclear-tipped 
air-launched cruise missile is part of our strategic 
deterrence.
    In light of that, would you agree or disagree with a letter 
urging the administration to drop any development of a nuclear-
tipped air-launched cruise missile, long-range standoff, let's 
say.
    General Kehler. Sir, I continue to support the need to have 
a nuclear-capable, air-launched cruise missile that would be a 
replacement for today's ALCM. As I mentioned to the chairman, I 
think we have--there is great deterrent value. It not only 
provides the ability to stand off with a bomber, depending on 
the scenario here, but it also allows the bomber to penetrate 
and still extend the range and effectiveness of the bomber, the 
penetrating bomber. So I think it still provides us with 
deterrent value. And, as I also mentioned, I think we have seen 
in combat the value of a dual-capable cruise missile, a cruise 
missile that can also be used in a conventional sense.
    The letter--I have seen the letter that you are mentioning. 
There are a number of issues that are raised. Some of these are 
ambiguity issues. I know that there have been some op-eds and 
other things written that I have read here over the last 
several months about raising the ambiguity concern. And, again, 
while I believe that you always have to be mindful of those 
concerns, I think those are workable, and we have worked those 
with the cruise missiles that we have today and the bombers as 
well, that I don't think those are insurmountable issues.
    I do think that the value we get out of an air-launched 
cruise missile and a gravity weapon also is greater than the 
risks that are raised here because specifically I believe that 
those risks are all--either have been worked or are workable.
    Mr. Lamborn. And in response to that, one of you, maybe it 
was you, General Kehler, had said that every time we launch a 
Tomahawk cruise missile from the Persian or Arabian Sea or 
something like that, the Russians or Chinese don't have any 
confusion about what is going on, you know, that that is 
strictly a conventional armed cruise missile. Why do we have 
that situation today?
    General Kehler. Well, number one, I think it is scenario 
dependent. I mean, they don't believe that we are shooting at 
them, one. So I take Dr. Acton's point here that if a conflict 
involves Russia or China, I think you would have to be mindful 
of those concerns. I think you work those in advance. I think 
you work those with the way you deploy these weapons. I think 
you work them with the way you test them. I think you work them 
in a lot of ways because I believe that you would have this 
issue in multiple ways. You will have this issue with the B-2, 
by the way. If we are involved in a fight with either Russia or 
China, I think today we would use the B-2 in that kind of a 
conflict, but the B-2 is dual-capable. I think those issues 
have been around for a long time about a stealthy platform and 
whether or not it would be carrying nuclear weapons, whether 
they would know it, et cetera, but I think that our operational 
behavior with B-2s has done something to help alleviate those 
concerns, and I think you would have to work those concerns 
here as well.
    Mr. Lamborn. Okay. I am going to turn the gavel back over 
to the chairman. But, lastly, General Kehler, so you would 
disagree with the letter I read earlier?
    General Kehler. I do disagree.
    Mr. Lamborn. Okay. Thank you. And I yield to the chairman.
    Mr. Rogers [presiding]. Great.
    The Chair now recognizes the gentleman from California, Mr. 
Garamendi, for any questions he may have.
    Mr. Garamendi. Thank you, Mr. Chairman. I noticed the bell 
rang, and I decided that I didn't want to prove that Pavlov was 
quite right about ringing bells and dogs salivating. So I think 
that this is probably far more important than voting on another 
motion to adjourn, so let me go ahead and have at this.
    General, your point about ambiguity and the cruise missile 
thus far and the B-2 bomber thus far not creating a problem, in 
that Russia or China previously understood that it wasn't 
coming at them, but we have not been involved in a conflict 
with either of those two countries.
    Now, in a conflict, and you were getting to this with 
your--at the end of your last comments, in a conflict with 
those countries, when their doctrine is one--at least Russia's 
doctrine--is one of escalate to de-escalate, I think we have a 
completely different situation, in which the ambiguity level 
significantly increases. So if we are launching a cruise 
missile, as was just discussed a moment ago, from the Persian 
Gulf to, I don't know, some place in Iraq, or Russia is 
launching a cruise missile from the Caspian Sea into Syria, we 
understood what was going on. We were not engaged in a war with 
Russia. So I think we have got a very, very different 
situation, and I think it is Mr. Perry's letter, former 
Secretary Perry's letter that is being discussed here, and the 
question of ambiguity really arises to its highest state of 
uncertainty in a conflict with a nuclear country such as Russia 
or China.
    So I will just make that comment to come back at what you 
were saying. I think ambiguity can be a very, very serious 
problem under those circumstances, and hopefully, we never find 
ourselves under those circumstances, but that is why we have 
the triad, is it not? It is not to deal with Iraq or Syria.
    Dr. Acton, in what way might the CPGS undermine strategic 
stability, and what should we do to mitigate this risk?
    Dr. Acton. Well, thank you for the question, sir. As I 
suggested already, I think that----
    Mr. Rogers. Dr. Acton, is your microphone working?
    Dr. Acton. Ah. I am sorry. Sorry, Mr. Chairman.
    As I suggested already, there is a series of different 
escalatory risks that I am concerned about. There has been a 
lot of focus on warhead ambiguity, which is not my major 
concern unless, as you rightly point out, we are in a conflict 
with Russia or China. There is destination ambiguity, 
uncertainty about where a CPGS weapon will land. One has----
    Mr. Garamendi. Excuse me. And that is because it can be 
redirected in flight?
    Dr. Acton. Because it is inherently maneuverable. Because 
with a ballistic missile, from the moment the motor burns out, 
you can predict where it is going to land. With a CPGS weapon, 
because it is maneuverable and can be redirected in flight, you 
don't know where it is going to land.
    You have crisis instability. So the--Russia, I think, 
incorrectly believes that the United States wants conventional 
weapons in order to attack Russia's nuclear weapons, but I 
believe that belief is genuine. And on Russia's part, the 
belief that the United States might preemptively attack its 
nuclear forces could lead Russia to use nuclear forces first.
    I have two suggestions about how to proceed. The first one 
is I very strongly agree with General Kehler that this is a 
problem that needs to be worked. The Department of Defense is 
only focused on warhead ambiguity to date, and I think that the 
first thing it should do is focus on the full range of 
instabilities. It should red team those instabilities, create 
models of how those instabilities could arise, and factor those 
instabilities into planning decisions.
    Secondly, if the U.S. does decide to go forward with 
conventional prompt global strike, I think cooperative 
confidence-building measures, things such as launch 
notifications, mutual inspections, are likely to be much more 
effective than the unilateral measures that DOD has placed a 
focus on to date.
    Mr. Garamendi. General Kehler and Mr. Scheber.
    Mr. Scheber, you seem to want to have at it, so why don't 
you go first.
    Mr. Scheber. Thank you. The issue of strategic stability is 
certainly a serious issue. I think I am the only one old enough 
in this room to remember the debate in the 1980s that went on 
at the time when all of our cruise missiles were nuclear armed 
and the consideration was in developing a conventionally armed 
missile for just that reason. Today, if we saw cruise missiles 
launched in most situations, as you pointed out, people would 
have assumed that they are conventional in nature because those 
are how the weapons have been used. We have demonstrated them, 
informed people, and so there was a whole different context. 
And so I think it is instructive to see how the world views 
changed as the arsenal changed and other countries were made 
aware of it.
    Regarding strategic stability and the potential for 
misunderstanding, it is certainly a topic that is serious. And 
the National Academy study report that reported out in 2008 
found conclusions similar to other studies that have been 
conducted by the Department of Defense, that while a serious 
issue, there are a variety of measures, and Dr. Acton mentioned 
confidence-building measures, which I wholly agree with, of 
briefing the Russians and the Chinese as to what we are doing, 
having hotlines available. We have a variety of hotlines 
already available, so if questions arise, the phone 
communication can be prompt and straightforward and clear up 
any uncertainty. And both the National Academy study and a 
variety of DOD studies concluded that they believe that these 
series of measures would be sufficient to keep the risk of any 
misunderstanding very low.
    Now, certainly you can never totally eliminate that risk--
given that humans are involved, but there is a variety of 
material on which we can already draw and then build upon to 
resolve the nuclear ambiguity strategic stability issue.
    Mr. Garamendi. Thank you. I am out of time. Thank you very 
much.
    Mr. Rogers. If you need a few more minutes, go ahead. You 
and I are it right now.
    Mr. Garamendi. Very good. General----
    Mr. Rogers. Well, now the ranking member came back, but go 
ahead.
    Mr. Cooper. Go ahead, John.
    Mr. Rogers. Go ahead, John.
    General Kehler. I agree with what has been said. I agree 
with your point as well that this is an issue that you have to 
work. And the point about Russia and China not believing that 
we are launching a nuclear-armed cruise missile today if we use 
one in combat is situationally dependent. I concede that point 
as well, but what I also know is that now for--I can't tell you 
the first time we used a conventional cruise missile in combat. 
Certainly in Desert Storm, we used them. So let's just say for 
20 years or 20-plus years, we have used them, what that does is 
it changes the situation in these other more dire scenarios 
where I don't believe that Russia, Chinese, or American leaders 
would knee jerk a reaction in a conflict that was at that kind 
of a level.
    So, having said that, again, I go back to I think you have 
to work this issue, and you have to be mindful of it, and I 
think it has to shape your behavior in a given scenario as 
well. So I am agreeing.
    And, by the way, I have tremendous respect for Dr. Perry, 
and when Dr. Perry says we ought to be concerned about 
something, I would agree with that. We ought to be concerned 
about it, but I do think it is workable.
    Mr. Garamendi. Yeah. I will take just another, maybe a 
minute here. The principal problem that I perceive here is that 
we are developing weapons that are by their nature very, very 
difficult to observe. They are stealthy and extremely dangerous 
in that they can carry nuclear weapons or very dangerous 
conventional weapons as we are discussing here. And an 
adversary, given the uncertainty, the hair trigger becomes much 
more finely tuned, and that is a concern, particularly given 
the Russian doctrine at the moment, which may change in the 
future. We are headed down a path that is, I think, increasing 
the danger and creating a new paradigm for which we are, by the 
conversation here, not prepared for. The previous paradigm was 
one in which we spent 30--almost 50 years developing an 
understanding and a communication process.
    The new weapons, however, by their nature will require a 
different paradigm, which we do not presently have. Could we 
develop it? If I recall the height of the Cold War, we were 
very lucky. And perhaps we were very good, but I suspect more 
so we were lucky, and that is my concern.
    Thank you very much for the time, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    General Kehler, you and I have talked about this before, 
but I am real concerned about the saber-rattling from Russia, 
and this couple--this recent disclosure of an autonomous 
underwater giant nuclear weapon is deeply troubling to me. And 
this weapon, according to Russia, would provide a new 
capability that, quote, ``the important components of the 
adversary's economy in coastal areas and inflicting 
unacceptable damage to the country's territory by creating 
areas of wide radioactive contamination that would be 
unsustainable for military, economic, or other activities for a 
long period of time,'' close quote.
    You put this together with their public--what we know 
publicly about their military doctrine, it is of concern to me. 
What do you make of this, and what does it tell you about their 
mindset, Russia's mindset? Or do you have an opinion?
    General Kehler. Well, my opinion now, Mr. Chairman, is sort 
of shaped from being on the outside looking in, but I think--
and I haven't spoken with any senior Russians lately, so I 
can't speak for them. It looks to me as though they have got 
two objectives here: One is to remind us and NATO [North 
Atlantic Treaty Organization], and the world really, that we 
have to take their concerns into account. And I think the 
second is, as part of a broader strategy to try to change the 
strategic game here, I think that they want to make sure that 
they can remind us that they are holding us at risk and that 
they can do so with conventional weapons, now long-range 
conventional weapons. You know that in Syria they launched 
long-range cruise missiles off of surface ships and off of Tu-
95s here not so long ago. So I think they are reminding us that 
they can hold our homeland at risk in a variety of ways and, as 
a result, are reminding us that us getting involved in things 
or acting with impunity, the risk is too high. But what 
troubles me about this is I think it smacks of returning to a 
Cold War kind of an approach here that maybe I naively had 
thought we were past all of that.
    So while I can understand why they would do this, what 
concerns me is if this is real security concern on their part 
that they are vulnerable somehow, then I do think you begin to 
get stability concerns. And so I think that is what troubles me 
as much as anything else, is that if--someone said once, and I 
don't know who said this or I would give them credit for it--I 
didn't, but someone said this, and it stuck with me--that 
insecurity begets instability, and so the flip is security 
begets stability. And so if they are insecure, fundamentally 
insecure here, then I think that that is a concern to me in 
trying to come up with strategies for how we deal with all of 
that.
    Mr. Rogers. Thanks.
    And, General, we have talked about hypersonic boost-glide 
programs. I want to call your attention to the monitors, the TV 
monitor that we have up there. This is an unclassified slide 
that we have been provided that shows French cooperation with a 
Russian arms manufacturer to develop hypersonic boost-glide 
capability.
    [The slides referred to can be found in the Appendix 
beginning on page 69.]
    Mr. Rogers. If you were still at STRATCOM, what would you 
be urging the Department of Defense and the Department of State 
to say to our French allies about their cooperation with Russia 
to develop what could be a new nuclear weapon delivery system?
    General Kehler. Well, I think as with any tech transfer 
kind of an issue, I would hope that the United States would 
express its concerns to anyone out there where technology 
transfer is an issue. We have some pretty strict technology 
transfer laws and processes and procedures, and I would be 
hopeful that we would express our concerns as well.
    I am not overly familiar with this. I see the chart. I am 
not overly familiar with this, and so I would hate to make a 
blatant statement about it, but I would just say in general 
terms, I would be concerned about technology transfer to any 
potential adversary. And whether Russia is an enemy, I think, 
is open for some conversation, but I would be very concerned 
about technology transfer to any of the potential adversaries.
    Mr. Rogers. That is all the questions I have.
    The Chair now recognizes the ranking member for any 
questions he may have.
    Mr. Cooper. I have no more questions, Mr. Chairman.
    Mr. Rogers. All right. Well, it looks like we have reached 
the end. And I thank the witnesses very much for their patience 
and for their contributions. It is very helpful to this 
committee.
    And, with that, we stand adjourned.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]

   
=======================================================================



                             A P P E N D I X

                            December 8, 2015

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 8, 2015

=======================================================================

            
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            December 8, 2015

=======================================================================

      [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

          
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            December 8, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. In your opening statement you stated, ``we continue to 
require a deployed conventional prompt strike capability to provide the 
President a range of flexible military options to address a small 
number of highest value targets, including in an anti-access and area 
denial (A2/AD) environment.'' Do you believe a CPGS system could 
enhance our power projection capacity in a manner that is unique to and 
entirely outside the capabilities of other conventional systems
    General Kehler. CPGS is envisioned to be unique from other 
conventional weapons both in range and time to effect and would 
definitely enhance U.S. power projection capacity as a precursor to 
other systems. Existing conventional systems could address the highest 
value targets in an A2/AD environment if they can respond in an 
operationally relevant timeframe, have sufficient range, and can 
penetrate sophisticated defenses. However, existing systems typically 
lack one or more of these attributes against the type of targets and 
scenarios envisioned for CPGS.
    Mr. Rogers. Considering the growing risk upon our conventional 
forces when it comes to projecting power in an A2/AD environment: (1) 
how might the availability of a CPGS system mitigate or overcome such 
risks and (2) in your judgment, are there potential force-multiplier 
benefits from integrating a CPGS capability from a platform based in 
the continental U.S. (or far from the area in question) with the 
capabilities of an expeditionary force operating in an A2/AD 
environment?
    General Kehler. In my view, the A2/AD strategy can be defeated 
through a combination of strong alliances and coalitions, updated 
operational concepts, improvements in the resilience of U.S. forces 
(especially cyber networks and space-based ISR and communications), and 
enhancements to our power projection capabilities (increased range and 
penetration capabilities). CPGS could contribute to this by providing 
commanders with a conventional strike capability that addresses high 
value targets early in a campaign and from outside the range of enemy 
kinetic forces. Before a conflict such a capability could contribute to 
deterrence by eliminating enemy sanctuaries. When used in coordination 
with other kinetic and non-kinetic strike capabilities early in a 
conflict, CPGS could help enable and enhance the effectiveness of 
subsequent U.S. power projection forces.
    Mr. Rogers. Do you believe the U.S. should prioritize the 
development and acquisition of a specific type of CPGS with specific 
attributes? If so, which type and with what attributes?
    General Kehler. At this point I would not prioritize a specific 
type of CPGS with specific attributes. I believe the most effective way 
to proceed is to develop a variety of potential CPGS approaches and 
allow performance to determine the way ahead. In my view there is value 
in continuing research into high-tech means to bring prompt, long-range 
strike into ``third wave'' consideration.
    Mr. Rogers. What security challenges do you foresee potentially 
arising if China successfully fields a CPGS system before the U.S.?
    General Kehler. We cannot allow our qualitative military advantages 
to decline or disappear. At the strategic level, virtually the entire 
U.S. defense strategy (to include the reduced role for U.S. nuclear 
weapons in non-nuclear scenarios) is based on the presumption of 
continued U.S. conventional superiority. Such superiority is based on a 
significant qualitative vice quantitative edge. Allowing any country to 
assume a position of qualitative military superiority over the U.S. 
would erode the credibility of our strategic deterrent and extended 
deterrent and threaten our freedom of action in a crisis or conflict. 
At the operational and tactical levels, a Chinese CPGS could threaten 
critical targets in the U.S. and allied homelands as well as critical 
targets associated directly with military operations in the Pacific 
region.
    Mr. Rogers. In Mr. Acton's opening statement, he raised the concern 
that, ``the Pentagon has no official policy that sets out the specific 
military missions for which CPGS weapons might be acquired.'' Is that 
correct? Regardless, what specific mission or missions would you 
consider a reasonable justification for the acquisition of a CPGS 
system?
    General Kehler. As I mentioned in my prepared remarks, CPGS would 
be valuable in missions against targets that might be presented either 
by violent extremists or nation-states, that could emerge in day-to-day 
or conflict scenarios, and would most likely be highly defended, be 
found in the most challenging geographic locations, or be mobile 
(perhaps all three). While it is impossible to predict with 100% 
certainty what these targets might be, it is likely that they would 
fall into several general categories: those that pose an immediate 
threat to the U.S. or allied homelands; those that involve the imminent 
use or movement of weapons of mass destruction; those associated with 
key extremist leaders; or those that represent a critical node in an 
important system that must be eliminated early in a campaign.
    Mr. Rogers. Some have suggested we seek to negotiate arms control 
to limit hypersonic weapons, including their testing. What do you think 
of these suggestions as national security policy? Do you foresee 
challenges in undertaking such a policy and what are they?
    General Kehler. I don't favor placing arbitrary ``speed limits'' on 
our military capabilities. We have hypersonic weapons today in the form 
of ballistic missiles. Hypersonic speed presents both opportunities and 
challenges for us and our potential adversaries and I fully understand 
the desire to avoid an ``arms race'' competition in this type of 
weapon. However, I would be very concerned about the difficulty of 
establishing transparency and sustaining high-confidence verification 
in a treaty-type approach.
    Mr. Rogers. How do you characterize and assess foreign 
development--primarily Russian and Chinese--of CPGS capability compared 
to our own?
    General Kehler. I am not current on the classified details of 
Russian and Chinese activities in this area. While still on active duty 
I was interested in their progress and concerned about the general 
inadequacy of U.S. intelligence priorities and resources associated 
with adversary hypersonic activities (as well as with many other 
intelligence areas). Again, while still in my active duty capacity I 
had some concern that Russia and China were seemingly moving faster 
than the U.S. in this area but had yet to see any material change in 
military capabilities as a result.
    Mr. Rogers. What does foreign--Russian and Chinese--development of 
this capability mean to the U.S.? Put another way, does it matter if 
China and/or Russia have this capability and we do not?
    General Kehler. In my view, having a unique military capability 
does not automatically translate into a military advantage. I would be 
very concerned if China or Russia had a hypersonic or CPGS capability 
that the U.S. was unable to counter. While it isn't necessary in my 
view for the U.S. to equal China or Russia in individual military 
capabilities or size, deterrence and crisis stability depend on those 
countries not achieving an overall military advantage over the U.S.
    Mr. Rogers. You were a military planner. How would you plan for 
dealing with such a non-nuclear or nuclear capability and would you 
want to have a defensive capability to deal with it?
    General Kehler. I would first plan to deter it. Deterring conflict 
remains the preferred approach and is the number one objective of the 
combatant commands. Deterrence is based on an adversary's belief that 
the U.S. has both the capability (forces, plans, command and control) 
and resolve (policy, declaratory statements, visible demonstrations) to 
deny their objectives or cause unacceptable costs if they try to 
achieve them. In my view, deterrence will remain credible in the 
Twenty-first Century if the U.S. tailors its plans and operations to 
the specific objectives and motivations of individual adversaries and 
brings a complementary set of offensive (conventional kinetic, non-
kinetic, nuclear) and defensive tools to the equation.
    Mr. Rogers. Does it matter if Russia and/or China have this 
capability with a nuclear warhead as opposed to a conventional warhead?
    General Kehler. I think it does matter. Regarding Russia, nuclear 
arms are controlled by various treaties that, so long as the parties 
abide by those treaties, provide a mechanism to address nuclear CPGS 
matters. We do not have similar arrangements with China; in my view a 
potential cause for concern if U.S. nuclear arms are further reduced. 
In effect, all long-range nuclear ballistic missiles are CPGS weapons. 
Hypersonic nuclear cruise missiles present additional challenges.
    Mr. Rogers. We have been hearing a lot about left-of-launch 
capability and shooting the archer in addition to the arrows, which is 
to say, focus on destroying ballistic missile launchers in addition to 
the ballistic missiles themselves. Does CPGS have a role to play in 
such a military capability space? Is that role unique, or is it a role 
that could easily be served by another military capability at less 
cost?
    General Kehler. I believe CPGS could serve a particularly important 
role in holding a small number of rogue-state ballistic missile 
launchers at risk. When combined with missile defenses, such a 
capability would provide the President with options below the nuclear 
threshold, even if the enemy ballistic missiles are nuclear-tipped. In 
my view, CPGS would be ideally suited for this mission since it would 
meet the following criteria: imminent use of a weapon of mass 
destruction that posed on immediate threat to the U.S. or allied 
homelands; located in a challenging geographic place that is likely to 
be highly defended; and will move soon. This is not a role easily 
served by other military capabilities at less cost. Of course, this 
approach will not work with larger, near-peer or peer nations where the 
scope and scale of their ballistic threat cannot be held at risk or 
negated by CPGS and limited defenses.
    Mr. Rogers. What security challenges do you foresee potentially 
arising if China successfully fields a CPGS system before the U.S.?
    Mr. Scheber. China is currently developing several versions of 
precision, prompt strike weapons to support its military strategy which 
calls for being able to control the western Pacific region out to ``the 
second island chain.'' If China deploys effective prompt strike weapons 
and the United States does not, the potential implications for the 
United States and its allies could be far reaching. Such a capability 
could strengthen China's anti-access/area denial capabilities and 
increase the challenge for the United States to defend its allies and 
protect free access to maritime trade routes in the Pacific. In 
particular, a Chinese CPGS capability, without an appropriate U.S. 
response, could weaken the ability of the United States to deter 
Chinese aggression, to assure U.S. allies in the region, and to limit 
damage in the event deterrence fails.
    Deterrence weakened: Without an effective and appropriate U.S. 
response, Chinese leaders could be emboldened to continue their 
``coercive diplomacy'' and threaten U.S. allies with non-nuclear 
strikes from PGS-type systems if they resist China's policies. A U.S. 
CPGS capability, if available, would provide a capability--a non-
nuclear capability--to promptly preempt China's offensive command and 
control capabilities and could increase the uncertainty of success for 
China's military leaders. This would likely have the effect of 
strengthening deterrence.
    Assurance weakened: Allies would likely feel threatened by Chinese 
CPGS capabilities if the United States cannot provide assurances that 
it can meet its obligations as specified in U.S. mutual defense 
treaties with western Pacific allies such as Japan, the Republic of 
Korea, and Australia. China would possess the capability to launch 
prompt, non-nuclear strikes to degrade U.S. and allied military 
capabilities in the region, thereby making more difficult for the 
United States the task of defending U.S. allies and projecting military 
force in the western Pacific. Effective U.S. counters would include 
U.S. prompt conventional strike capabilities to degrade Chinese ISR and 
command and control capabilities. In addition, additional U.S. missile 
defenses would be needed to intercept any Chinese PGS missiles that are 
launched and threaten allied assets, on land and at sea. A U.S. CPGS 
capability would help assure allies that the United States is not 
falling behind in twenty-first century military technology and that the 
United States has the competence and capabilities to meet its mutual 
defense commitments to allies in the face of a hostile China.
    If Deterrence fails: Should military conflict erupt between China 
and the United States and its allies, the United States would be 
disadvantaged by the asymmetry in which China possessed CPGS-type 
weapons and the United States did not. China could use these weapons in 
support of its anti-access/area denial strategy and degrade U.S. 
military capabilities as far away as Guam, and in the future perhaps 
farther. U.S. CPGS capabilities, if developed and deployed, could, in 
combination with cyber and other capabilities, help degrade the Chinese 
strategy by damaging key elements of its surveillance and command and 
control capabilities, damaging offensive missile capabilities, and 
improving the survivability of U.S. and allied military forces being 
brought to bear on China. This could help to convince its leaders to 
cease China's aggressive military actions.
    Mr. Rogers. In Mr. Acton's opening statement, he raised the concern 
that, ``the Pentagon has no official policy that sets out the specific 
military missions for which CPGS weapons might be acquired.'' Is that 
correct? Regardless, what specific mission or missions would you 
consider a reasonable justification for the acquisition of a CPGS 
system?
    Mr. Scheber. Skeptics of certain military capabilities sometimes 
use such assertions to try to refute DOD statements that the military 
capabilities in question are needed and well conceived. Then, after DOD 
officials describe a potential scenario in which a capability, such as 
CPGS, might be of value, the skeptics then try to explain why such a 
hypothetical situation is unlikely and the proposed capability 
unnecessary. This type of debating tactic is ill conceived when applied 
to CPGS.
    First, while Dr. Acton often raises valid questions that should be 
addressed regarding CPGS, he errs in asserting that the DOD has not 
documented the potential missions for which CPGS would provide a unique 
and valuable capability. The most recent Congressional Research Service 
report on Prompt Global Strike summarizes the DOD documents which 
discuss the rationale for and potential uses of CPGS. For example, the 
CRS report states, ``The need for prompt long-range, or global, strike 
capabilities has been addressed in general defense policy studies, such 
as the 2001, 2006, and 2010 Quadrennial Defense Review (QDR) Reports.'' 
\1\ In addition, DOD has submitted several reports to the Congress on 
the need for and programs planned to develop a CPGS capability. And 
finally, in 2006 the Joint Chiefs of Staff validated the Prompt Global 
Strike (PGS) Initial Capabilities Document (ICD). This requirements 
document was reviewed again in 2013 and revalidated. The mission need 
for CPGS is well documented. Second, secretary of Defense Ashton Carter 
and other senior DOD officials have recently stressed the important 
attributes of flexibility and adaptability. This is because war is 
often accompanied by surprises--surprises in an adversary's technology, 
tactics, and decisions--and military plans must be rapidly modified. 
Military history is replete with examples. And, as recently articulated 
by the congressional testimony of the Director of National Intelligence 
and the Director of the Defense Intelligence Agency, the global threat 
assessment is extremely complex, diverse, and the future uncertain. The 
concept of developing prompt, non-nuclear strike capabilities that are 
global, or near global, in range is to fill a gap in existing U.S. 
offensive strike capabilities and, thereby, increase the flexibility of 
U.S. strategic strike capabilities. U.S. CPGS capabilities could prove 
of immense value against a variety of serious threats.
---------------------------------------------------------------------------
    \1\ Amy F. Woolf, Conventional Prompt Global Strike and Long-Range 
Ballistic Missiles: Background and Issues, CRS Report R-41464, October 
2, 2015, p. 3.
---------------------------------------------------------------------------
    Mr. Rogers. Some have suggested we seek to negotiate arms control 
to limit hypersonic weapons, including their testing. What do you think 
of these suggestions as national security policy? Do you foresee 
challenges in undertaking such a policy and what are they?
    Mr. Scheber. In my opinion, calls for the United States to 
negotiate limits on hypersonic weapons, such as current U.S. concepts 
for CPGS, are ill conceived and should not be pursued.
    First, the countries with which the United States would seek to 
negotiate such an agreement, Russia and China, are unlikely to 
negotiate in good faith or to abide by signed arms control agreements. 
China is actively developing several types of prompt strike 
capabilities that employ hypersonic delivery vehicles. These weapons 
appear to provide important capabilities for China's anti-access/area 
denial strategy. In addition, China has never shown an inclination to 
enter into a negotiation with the United States on limiting strategic 
capabilities. Indeed, China appears to be working hard to narrow the 
gap and neutralize several areas of U.S. military superiority. Russia, 
on the other hand, has been willing to negotiate strategic arms control 
agreements with the United States but has not proven to be a good-faith 
partner in complying with such treaties once they are signed. Arms 
Control Compliance Reports from the Department of State have documented 
Russia's poor record of compliance. And, nongovernmental organizations 
have documented the consistent pattern of Russian violations of arms 
control agreements.\2\ Therefore, the prospect a negotiation on such 
weapons being concluded successfully and with lasting. positive 
security benefits for the United States and its allies is, in my 
opinion, extremely remote.
---------------------------------------------------------------------------
    \2\ For example, Keith Payne, et al., Russian Strategy, Crisis and 
Conflict (Fairfax, VA: National Institute Press, 2016), pp. 83-102. 
http://www.nipp.org/wp-content/uploads/2016/01/FINAL -FOR-WEB-
1.12.16.pdf
---------------------------------------------------------------------------
    Second, any effort to initiate negotiations limiting the 
development, testing, and deployment of hypersonic weapons and other 
prompt strike capabilities is likely to cause U.S. development 
activities for CPGS capabilities to be slowed further or curtailed 
entirely. Given the importance of developing U.S. CPGS capabilities to 
strengthen deterrence and assurance and to provide unique capabilities 
in the event deterrence fails, the United States should increase, not 
decrease its efforts to develop CPGS capabilities.
    As a matter of policy, I recommend that the United States not seek 
to initiate an arms limitation negotiation that includes limitations on 
hypersonic or other non-nuclear prompt strike weapons.
    Mr. Rogers. How do you characterize and assess foreign 
development--primarily Russian and Chinese--of CPGS capability compared 
to our own?
    Mr. Scheber. In a word, I would characterize the United States CPGS 
development efforts as anemic when compared to similar development 
programs of China and Russia. After more than a decade of research and 
a general concept for CPGS capabilities endorsed by both Republican and 
Democratic administrations, DOD does not yet have a plan for deploying 
such a capability. In contrast, both China and Russia have claimed to 
have deployed conventional prompt strike concepts and are continuing to 
develop improved concepts.
    China: China's leaders appear to be pursuing multiple applications 
for conventional prompt strike weapons for its military strategy in the 
western Pacific. According to one China analyst, the PLA's conventional 
prompt ballistic missile inventory includes about 1,200 short-range 
missiles (DF-11/CSS-7 and DF-15/CSS-6), medium-range missiles such as 
the DF-21/CSS-5 family which includes an anti-ship version and the DF-
16/CSS-11 which can target Okinawa, and development of an intermediate-
range missile, the DF-26, to be able to target U.S. capabilities as 
distant as Guam. In fact, one Chinese Communist Party newspaper has 
reportedly referred to the DF-26 as the ``Guam killer.'' These missiles 
do not need to be of global reach to support China's anti-access/area 
denial strategy in the western Pacific. In addition, in November 2015, 
China reportedly conducted its sixth flight test of a hypersonic glide 
vehicle (HGV), designed to be launched from an ICBM missile booster. In 
general, China appears to have a very active collection of programs to 
develop and deploy advanced prompt strike weapons--both conventional 
and nuclear.
    Russia: For the twenty-first century, Russian military strategists 
appear to be increasing reliance on nuclear forces and, in particular, 
new types of low-yield nuclear weapons, as well as precision 
conventional weapons, that can be delivered by ballistic or hypersonic 
glide vehicles. For example, press reports from Russia state that 
Russia is capable of outfitting its newer submarine-launched ballistic 
missiles with either low-yield nuclear warheads or conventional 
warheads with precision delivery. In December 2012, the Commander of 
Russia's Strategic Missile Forces, Colonel-General Sergei Karakayev 
said that Russia was also considering developing a conventional payload 
for its new powerful, liquid-fueled ICBM.\3\ Finally, Russian news 
reports state that Russia has been working with China, France, and 
India on developing hypersonic missiles. And, a new type of hypersonic 
delivery vehicle, referred to as the Yu-71 and carried by ICBMs, has 
reportedly been tested at least four times since late 2011 with mixed 
results.\4\
---------------------------------------------------------------------------
    \3\ Mikhail Fomitchev, ``Russia to Develop Precision Conventional 
ICBM Option,'' RIA Novosti, December 14, 2012.
    \4\ See http://russianforces.org/blog/2015/06/
summary_of_the_project_4202_de.shtml. Also, Bill Gertz, ``Russia Tested 
hypersonic Glide Vehicle in February,'' The Washington Free Beacon, 
June 25, 2015, http://freebeacon.com/national-security/russia-tested-
hypersonic-glide-vehicle-in-february/
---------------------------------------------------------------------------
    In summary, a decade ago the United States appeared to be the clear 
leader in military technology for CPGS-type capabilities. Based on open 
source reports on Chinese and Russian development activities, that no 
longer seems to be the case.
    Mr. Rogers. What does foreign--Russian and Chinese--development of 
this capability mean to the U.S.? Put another way, does it matter if 
China and/or Russia have this capability and we do not?
    Mr. Scheber. In short, Russian and Chinese development of prompt 
strike capabilities, such as hypersonic glide vehicles, and the absence 
of such capabilities from the U.S. military force, would have 
significant negative implications for the United States and its allies.
    First, the ability of Russian and Chinese missiles to deliver 
offensive payloads at hypersonic speeds and delivery vehicles that can 
rapidly change course would complicate U.S. efforts to defend against 
such incoming missiles. In fact, senior Russian military officers have 
said that new Russian missiles were being designed to be able to 
counter U.S. missile defenses.\5\
---------------------------------------------------------------------------
    \5\ ``US Missile Shield Unable to Repel Massive Russian ICBM 
Attack--Chief of Strategic Missile Forces,'' Russia Today news, 
December 16, 2015. https://www.rt.com/news/326121-us-missile-shield-
russian-icbm/
---------------------------------------------------------------------------
    Second, modern guidance technology for hypersonic reentry vehicles 
can significantly improve the delivery accuracy of long-range missiles 
and makes feasible the potential military employment of low-yield 
nuclear and even conventional warheads. Such weapons could be launched 
at U.S. or allied capabilities with little warning or time to respond. 
If the United States does not have its own CPGS capabilities, this 
would cede an asymmetric military advantage to Russia and China. Such 
adversary weapons could be used to degrade U.S. or allied capabilities, 
support China's area denial plans, intimidate U.S. allies in the 
region, and accomplish a fait accompli to the ultimate benefit of the 
country employing such weapons. Adversary leaders could well be willing 
to gamble that their U.S. counterparts would be unwilling to escalate 
the conflict by responding with U.S. ballistic missiles which currently 
carry only high-yield nuclear warheads.
    As mentioned in my response to question #5, this asymmetry could 
disadvantage the United States in ways that would weaken deterrence 
vis-a-vis Russia and China and also cause allies to question the 
ability of the United States to meet its security commitments.
    Mr. Rogers. Does it matter if Russia and/or China have this 
capability with a nuclear warhead as opposed to a conventional warhead?
    Mr. Scheber. Russia and/or China may decide to use hypersonic glide 
vehicles and long-range missiles to deliver nuclear warheads. Both 
already have a prompt global strike nuclear capability inherent in 
their nuclear-armed intercontinental-range ballistic missiles. 
Development of maneuvering, hypersonic glide vehicles could be 
motivated to increase the probability of penetrating U.S. missile 
defenses. In addition, if these newly developed weapons also provide 
significantly improved accuracy when compared to existing ballistic 
missiles, these countries may perceive a military advantage to 
deploying some delivery vehicles with lower-yield nuclear warheads. 
Deploying more accurate, prompt weapons with low-yield warheads could 
be used to threaten the United States and its allies with escalation 
during a conventional conflict. Adversary leaders may even be willing 
to launch some low-yield nuclear weapons to degrade U.S. capabilities 
and, with no similar U.S. response capability, gamble that U.S. leaders 
would be unwilling to escalate a conflict and respond with U.S. 
missiles armed with high-yield warheads. This would certainly put the 
United States at a disadvantage. Effective U.S. capabilities to counter 
such Russian and Chinese threats and negate the effectiveness of these 
weapons would appear to be a high priority for the United States. 
Development of a U.S. CPGS capability would contribute significantly 
toward that goal.
    Mr. Rogers. We have been hearing a lot about left-of-launch 
capability and shooting the archer in addition to the arrows, which is 
to say, focus on destroying ballistic missile launchers in addition to 
the ballistic missiles themselves. Does CPGS have a role to play in 
such a military capability space? Is that role unique, or is it a role 
that could easily be served by another military capability at less 
cost?
    Mr. Scheber. CPGS capabilities could prove extremely valuable in 
executing a ``left-of-launch'' strike against an imminent threat. For 
example, countries possessing WMD and/or the ability to launch one or 
more missiles against the United States and/or its allies would likely 
have key enabling capabilities that would be exposed and vulnerable to 
a limited non-nuclear strike by the United States. U.S. CPGS 
capabilities could perform such a mission with little warning for an 
adversary and with high probability of successful penetration of enemy 
defenses. If follow-on strikes are needed, CPGS weapons in combination 
with cyber and other capabilities might be employed to degrade enemy 
defenses and enable heavier and more sustained follow-on strikes with a 
decreased risk of loss to enemy defenses. For such a tactic, CPGS 
weapons could be targeted against ground-based downlink nodes that 
distribute information to and from space-based assets. This would 
likely be coordinated with cyber and space defense capabilities.
    It is my opinion that by raising the uncertainty in the minds of 
adversary leaders over whether or not they might be able to 
successfully execute a surprise attack, the probability of deterring 
these leaders from attempting such a strike would be improved.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. The three hearing witnesses agreed that pursuing 
cooperative measures (or confidence building measures) would be helpful 
to reduce the risk of misperception or miscalculation. Specifically 
what kind of measures would be helpful, and should these be considered 
as the CPGS technologies are developed?
    General Kehler. I believe any steps (diplomatic or military-to-
military) we can take with adversaries or potential adversaries that 
allow us to better understand intentions, motivations, capabilities and 
decision-making processes will help build confidence. Regarding CPGS 
specifically, I believe it is important to build confidence around 
capabilities, numbers, and the attributes that would clearly separate 
these weapons from nuclear weapons.
    Mr. Cooper. The three hearing witnesses agreed that pursuing 
cooperative measures (or confidence building measures) would be helpful 
to reduce the risk of misperception or miscalculation. Specifically 
what kind of measures would be helpful, and should these be considered 
as the CPGS technologies are developed?
    Dr. Acton. The first-order task is for the United States to engage 
Russia and China in dialogues with the goal of reaching a shared 
understanding about which escalation risks need to be addressed. At the 
moment, these three states have quite different perceptions. For 
example, U.S. officials and analysts tend to worry about the 
possibility of Russia's or China's misidentifying a conventionally 
armed missile as nuclear armed (warhead ambiguity). By contrast, their 
Russian and Chinese counterparts have tended to stress concerns about 
the survivability of their nuclear forces. Realistically, such a 
dialogue is likely to be both difficult to start and difficult to 
conclude, but it is a necessary pre-requisite to confidence building.
    The following are examples of confidence-building measures that 
could help to address concerns about warhead ambiguity:
    <bullet>  The United States could notify Russia and China of the 
launch of a CPGS weapon. (If such notifications also included the 
approximate location of the target, they could help reduce the 
likelihood of Moscow's or Beijing's reaching a mistaken conclusion that 
they were under attack from highly maneuverable CPGS weapons).
    <bullet>  The United States could permit inspections of CPGS 
weapons (almost certainly by Russia) to verify that their warheads were 
nonnuclear. Naturally, such measures could be reciprocal either in the 
sense that Russia and/or China agreed to provide similar notifications 
or permit similar inspections, or in the sense that Russia and/or China 
took asymmetric steps to ease U.S. concerns about their strategic 
modernization programs.
    To address concerns about the survivability of Russian and Chinese 
nuclear forces, confidence-building measures such as the following 
could be useful:
    <bullet>  Joint studies (possibly conducted by national academies 
of science) into the extent to which high-precision conventional 
weapons can undermine the survivability of nuclear forces.
    <bullet>  Data exchanges about plans for acquiring specified types 
of long-range, hypersonic, conventional weapons.
    <bullet>  The accountability of specified types of long-range, 
hypersonic, conventional weapons under the central limits of future 
nuclear arms control treaties.
    It is extremely important that the possibility of cooperative 
confidence-building be considered at the same time that CPGS 
technologies are developed. If they are not, certain confidence-
building measures may be foreclosed, or at least made much more 
difficult. For example, Congress has previously expressed 
understandable concern about basing CPGS weapons on SSBNs because it 
would lead to the colocation of nuclear and conventional weapons. 
However, since SSBNs are already subject to arms control inspections, 
it would be straightforward to permit inspections to verify that any 
CPGS weapons they carried were indeed nonnuclear. By contrast, such 
inspections would be much more difficult to orchestrate if CPGS weapons 
were based on SSNs, which are not subject to any arms control 
verification regime.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
